                                     SOCIAL SECURITY
MEMORANDUM

Date:   June 13, 2008                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: QuickResponse Evaluation: Timeliness of Medical Evidence at Hearing Offices
        (A-05-08-28106)


        The attached final quick response evaluation presents the results of our review. We
        began this work after you requested that the Office of the Inspector General evaluate
        and document the extent to which delays in the submission of evidence affects the
        timeliness of the hearing and appeal process. Our objectives were to assess (1) the
        Social Security Administration’s procedures for monitoring the timeliness of medical
        evidence provided to hearing offices, (2) the validity of the data used in this monitoring,
        and (3) based on the data, the extent of problems with untimely medical evidence.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
 QUICK RESPONSE
  EVALUATION
Timeliness of Medical Evidence
      at Hearing Offices
         A-05-08-28106




          June 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                       Executive Summary
OBJECTIVE
Our objectives were to assess (1) the Social Security Administration’s (SSA) procedures
for monitoring the timeliness of medical evidence provided to hearing offices, (2) the
validity of the data used in this monitoring, and (3) based on the data, the extent of
problems with untimely medical evidence.

BACKGROUND
On October 29, 2007, SSA issued a notice of proposed rulemaking (NPRM) that stated
“Our program experience has convinced us that the late submission of evidence to the
[Administrative Law Judge] significantly impedes our ability to issue hearing decisions in
a timely manner.” 1 To remedy this situation, the NPRM listed a number of potential
changes to the appellate process, including (1) requiring at least 75 days’ notice for
hearings and (2) requiring the submission of evidence at least 5 days before the hearing
to ensure the Administrative Law Judge has time to review the evidence. Subsequent
to the NPRM, the Commissioner requested that the Office of the Inspector General
evaluate and document the extent to which delays in the submission of evidence affects
the timeliness of the hearing and appeal process.

RESULTS OF REVIEW
We determined that the Case Processing and Management System (CPMS)
information 2 being used by the Office of Disability Adjudication and Review (ODAR) to
monitor the timeliness of medical evidence did not indicate the late submission of
medical evidence before hearings was a significant issue at hearing offices. ODAR
managers identified two points in the hearing process affected by the late submission of
medical evidence by claimants and their representatives before the hearing: hearing
postponements (where the hearing is scheduled for a later date) and post-hearing
development (where evidence is reviewed after the hearing). When we reviewed these
two points of the hearing process, we found that about 0.2 percent of hearings were
postponed annually as a result of late medical evidence and about 1.8 percent of the
workload currently in-process 3 was significantly delayed after the hearing due to late
medical evidence.



1
 Amendments to the Administrative Law Judge, Appeals Council, and Decision Review Board Appeals
Levels, 72 Federal Register 61218, October 29, 2007.
2
    Prior audit work determined that the CPMS No Status Change report used in this review was reliable.
3
 The CPMS No Status Change report used to determine the timeliness of the ODAR workload at various
stages is a “snapshot” of the entire workload being processed at the time the report is printed.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                         i
When we reviewed all medical evidence delays in the hearing process, in addition to
claimant-related issues before the hearing, we found that as much as 7.2 percent of the
workload currently in-process was significantly delayed because of late medical
evidence. However, since the majority of these medical evidence issues occur before
the claimant’s hearing is scheduled, they are neither directly associated with the
medical evidence problems noted in the October 2007 NPRM nor likely to be remedied
by the hearing process changes proposed in the notice.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                     ii
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

   DELAYS IN MEDICAL EVIDENCE ..................................................................... 3

   HEARING POSTPONEMENTS .......................................................................... 3

   POST-HEARING DEVELOPMENT..................................................................... 6

   PRE-HEARING DEVELOPMENT ....................................................................... 9

MATTERS FOR CONSIDERATION ..................................................................... 11

APPENDICES
APPENDIX A – Acronyms
APPENDIX B – Notice of Proposed Rulemaking
APPENDIX C – Scope and Methodology
APPENDIX D – Hearing Office Process Flow Diagram
APPENDIX E – New Evidence Postponement Code Activity
APPENDIX F – No Status Change Report
APPENDIX G – Prior Audit Work on Pending Claims
APPENDIX H – Benchmarks for Quality Case Processing
APPENDIX I – OIG Contacts and Staff Acknowledgments




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                             Introduction
OBJECTIVE
Our objectives were to assess (1) the Social Security Administration’s (SSA) procedures
for monitoring the timeliness of medical evidence provided to hearing offices, (2) the
validity of the data used in this monitoring, and (3) based on the data, the extent of
problems with untimely medical evidence.

BACKGROUND
The hearing process begins after an individual is denied benefits at the initial and
reconsideration levels at a State disability determination services (DDS) office. 1 The
next step in the appeals process is a hearing before an administrative law judge (ALJ).
Individual hearings are held by 1 of the Office of Disability Adjudication and Review's
(ODAR) 141 hearing offices located nationwide.

Hearing offices may request two types of medical evidence as part of their review of a
disability case: 2 medical evidence of record (MER) and consultative examinations (CE).
MERs are copies of existing medical evidence, whereas CEs supplement MER obtained
from claimants’ treating sources. CEs may include medical and psychological
examinations, x-rays, and laboratory tests. Hearing offices may also call in medical and
vocational experts in cases where the ALJ can "...gain information which will help him or
her evaluate the medical evidence in a case...." 3 According to ODAR’s procedures,
hearing offices can request medical evidence from (1) the claimant, (2) the State DDS,
and/or (3) the treating source or other medical source. 4

Claimants and their representatives are also requested to provide relevant medical
evidence to the ALJ before the hearing. According to SSA’s policy, “The claimant is
responsible for providing evidence to support his or her claim. If the claimant does not
provide medical or other evidence the [ALJ] needs and asks for, the ALJ will generally
make a decision based on the evidence in the record, including evidence the ALJ has


1
  Disability determinations under SSA's Disability Insurance and Supplemental Security Income programs
are required to be performed by DDS offices in each State according to Federal law and underlying
regulations. In carrying out its obligation, each DDS is responsible for determining claimants' disabilities
and ensuring adequate evidence is available to support its determinations. See 20 Code of Federal
Regulations §§ 404.1601 et seq. and 416.1001 et seq.
2
 Medical evidence is necessary to develop the full set of facts associated with the alleged disability
before the hearing. Delays in the hearing process may also lead to a change in an individual’s medical
condition, which could be relevant to the determination of whether an individual qualifies for SSA benefits.
3
    SSA, Hearings, Appeals and Litigation Law (HALLEX) Manual I-2-5-32: Medical Experts – General.
4
    SSA, HALLEX Manual I-2-5-1: Evidence – General.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                          1
obtained directly.” 5 ODAR uses the Case Processing and Management System
(CPMS), a web-based tracking system, to electronically control and process hearing
cases. 6 Through CPMS, ODAR management can monitor the hearings workload. The
CPMS management reports are available at the local (hearing office), regional, and
national levels.

Proposed Changes to the Medical Evidence Process
On October 29, 2007, SSA issued a notice of proposed rulemaking (NPRM) regarding
Amendments to the Administrative Law Judge, Appeals Council, and Decision Review
Board Appeals Levels. 7 The NPRM noted the following

            Our program experience has convinced us that the late submission of
            evidence to the ALJ significantly impedes our ability to issue hearing decisions
            in a timely manner. When new and voluminous medical evidence is
            presented at the hearing or shortly before the hearing, the ALJ and any other
            person who will be participating in the hearing, such as a medical or
            vocational expert, do not have the time needed to review the record and
            adequately prepare for the hearing. We often must reschedule the hearing,
            which not only delays the decision on that case, but also delays the hearings
            of other individuals.

To remedy this situation, the NPRM listed a number of changes SSA proposed to the
appellate process, including (1) requiring at least 75 days’ notice for hearings and
(2) requiring the submission of evidence at least 5 days before the hearing to ensure the
ALJ has time to review the evidence (see Appendix B). ODAR management explained
that the additional notice period before the hearing would provide the claimants and
their representatives more time to obtain the required medical evidence.

Subsequent to the NPRM, the Commissioner requested that the Office of the Inspector
General (OIG) evaluate and document the extent to which delays in the submission of
evidence affects the timeliness of the hearing and appeal process. To meet our
objectives, we discussed the hearing process and medical evidence issues with ODAR
management and staff, examined policies and procedures related to the timeliness of
medical evidence, obtained CPMS management reports, and reviewed prior work in this
area. We provide additional information on our review approach in Appendix C.




5
    Ibid.
6
 In our June 2006 audit, Case Processing and Management System and Workload Management
(A-12-06-26012), we assessed the ability of CPMS to improve workload management at hearing offices in
ODAR.
7
 Amendments to the Administrative Law Judge, Appeals Council, and Decision Review Board Appeals
Levels, 72 Federal Register 61218, October 29, 2007.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                  2
                                                          Results of Review
We determined that the CPMS information used by ODAR to monitor the timeliness of
medical evidence did not indicate that the late submission of medical evidence before
hearings was a significant issue at hearing offices. ODAR managers identified two
points in the hearing process affected by the late submission of medical evidence by
claimants and their representatives prior to the hearing: hearings postponements
(where the hearing is scheduled for a later date) and post-hearing development (where
evidence is reviewed after the hearing). When we reviewed these two points of the
hearing process, we found that about 0.2 percent of hearings were postponed annually
as a result of late medical evidence and about 1.8 percent of the workload currently in-
process was significantly delayed after the hearing due to late medical evidence. In
addition, ODAR management stated that hearings postponement data for late medical
evidence were incomplete since hearing offices may not have been coding cases
properly. As a result, ODAR issued new guidance to the hearing offices. Moreover,
while the CPMS data on post-hearing development were more accurate, CPMS did not
specifically monitor the Chief ALJ’s timeliness goals for medical evidence. Finally, when
we reviewed all medical evidence delays in the hearing process, in addition to claimant-
related issues before the hearing, we found that as much as 7.2 percent of the workload
currently in-process was significantly delayed because of late medical evidence.

DELAYS IN MEDICAL EVIDENCE

In our discussions with ODAR management, we were informed that hearing delays
associated with late medical evidence from claimants and their representatives usually
resulted in (1) postponements of hearings and/or (2) post-hearing development
workloads. For example, an ALJ can postpone a hearing when the claimant or
claimant’s representative provides new medical evidence on the day of the hearing. 8 In
addition, an ALJ can continue with the hearing when medical evidence is provided late
in the process and assess the new evidence after the hearing, a process called “post-
hearing development.” (See Appendix D for an explanation of the various steps in the
hearing process.) To better understand these delays, we asked management for any
reports or analysis indicating late medical evidence led to significant postponements
and/or post-hearing development workloads. We discuss each of these issues below.




8
  ODAR staff stated that claimant representatives often wait until hearings are scheduled before
requesting additional medical evidence. Requests just before the hearing can lead to the untimely
submission of medical evidence.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                   3
HEARING POSTPONEMENTS

CPMS information indicates that about 0.2 percent of all hearing cases processed in
Fiscal Year (FY) 2007 were postponed because of late evidence. ODAR management
has stated the hearing offices were probably not properly coding all postponed cases
associated with late evidence, which led to the issuance of new guidance. Even with
this new guidance, we have not seen a significant increase in the number of cases
postponed because of late evidence.

Postponement Codes

ODAR uses the CPMS Auxiliary Monthly Activity Report (AUX MAR) to monitor the
different types of postponements in the hearing offices. Per the AUX MAR, 9 we found
that 956 hearings were postponed in FY 2007 under the “new evidence” (NE) code,
which is used to indicate a case has been postponed as a result of new evidence
brought to the hearing or to obtain additional evidence (see Table 1). These
956 hearings represent about 0.2 percent of the approximately 548,000 cases decided
in FY 2007. 10

           Table 1: New Evidence Postponements by SSA Region (FY 2007)
                     Region                  Number of                 Percent of Total
                                           Postponements
             Atlanta                                117                           12.2
             Boston                                  31                            3.2
             Chicago                                145                           15.2
             Dallas                                 182                           19.0
             Denver                                  39                            4.1
             Kansas City                             36                            3.8
             New York                               133                           13.9
             Philadelphia                            46                            4.8
             San Francisco                          199                           20.8
             Seattle                                 28                            2.9
             Total                                  956                          100.0
            Note: May not add to 100 percent due to rounding.




9
 The AUX MAR report is a monthly report that contains summarized hearings-related workload data
extracted from CPMS. The report details ALJ workload, Appeals Council and court remand summaries,
subsequent applications, and receipt and case overview data for a given month.
10
   Overall, about 52,000 hearing cases, 9 percent of the FY 2007 dispositions, were postponed for a
variety of reasons, including the “representative request,” “claimant was unavailable,” and “representative
was unavailable.” In addition, not all dispositions involve a hearing. For instance, an On-The-Record
(OTR) decision does not require a hearing. OTR decisions occur when the claimant has waived the right
to a hearing or when the ALJ has reviewed the claim file and determined that a decision can be issued
without the need for a hearing. However, we determined that even with the removal of OTRs from the
total dispositions, the 956 postponements would remain at about 0.2 percent of the FY 2007 workload.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                         4
New Guidance

ODAR representatives stated that it is possible the NE postponement code is not being
properly used at hearing offices and therefore the OIG should be cautious about relying
on this low figure. As a result of our review, on January 10, 2008, ODAR management
sent a reminder to hearing office managers on the proper use of the NE code. In this
guidance, ODAR stated, in part,

          We want to ensure that this code is consistently used nationally. Please
          remind your hearing office management teams, that whenever a case is
          postponed or continued as a result of new evidence being brought to the
          hearing or is postponed or continued to obtain additional evidence, the NE
          code should be used. While this code has been available for some time, we
          would ask that the hearing office management teams ensure that the contract
          reporters are reminded that this is the appropriate code for any
          postponements or continuances that occur as a result of new evidence
          brought to the hearing or as a result of postponements or continuances to
          obtain additional evidence.

When we noted CPMS does not actually use the term “NE” when information is being
input, ODAR staff agreed that the January 2008 guidance could be clearer and may
need to be reissued. While the NE code is a CPMS data element, 11 the hearing office
contract reporters inputting the postponement information into CPMS do not see this
code but instead use a drop down menu to choose the reason for the postponements.

Recent Use of the Postponement Code

To date, the issuance of new guidance has not led to an overall increase in the number
of cases coded as postponed because of late evidence. The use of the NE
postponement code averaged 80 hearing cases per month in FY 2007, and we found
that, between February 19 and March 19, 2008, 83 hearings were postponed. 12 As a
result, we do not see evidence the number of postponed cases will rise above 1 percent
of the FY 2008 goal for ALJ dispositions. ODAR staff concurred that the NE
postponement code data did not change significantly after the new guidance was
issued. 13




11
 CPMS converts the information being input at the hearing office into the NE code observed in the
CPMS management reports.
12
     See Appendix E for the daily count of postponements from January through March 2008.
13
  It is also possible that management’s guidance has decreased the number of postponed cases. On
October 31, 2007, the Chief ALJ sent a letter to ALJs encouraging them to “…hold scheduled hearings
unless a good reason exists to cancel or postpone the hearing.” The letter noted that postponing or
canceling a hearing without a good reason “delays decisions to claimants who desperately await them,
and uses precious limited support staff resources to re-schedule the hearing.”


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                      5
Review of October 2007 Postponements

To determine how a postponement will affect the overall timeliness of a hearing, we
reviewed a sample of 15 claimants whose hearings were postponed in October 2007
because new evidence was received at the hearing or to obtain additional evidence. As
of the end of March, we found that 14 of the 15 cases had a hearing, were scheduled
for a hearing, or were disposed of without a hearing. 14 These 14 cases were delayed
an average of 15 weeks from the postponement date to the case disposition. 15 As of
the end of April 2008, the remaining case had yet to be scheduled for a hearing. 16

POST-HEARING DEVELOPMENT

CPMS information indicates that approximately 1.8 percent of all hearings currently
in-process were recorded as “untimely” in the post-hearing development status codes.
We also found that other guidelines on medical evidence were not clearly integrated into
the CPMS management reports, which may preclude ODAR managers from holding
hearing offices accountable for timely dispositions.

No Status Change Report

ODAR headquarters, regional, and hearing offices use the No Status Change report to
monitor the hearing process and ensure pending claims are processed timely (see
Table 2). 17 According to the CPMS No Status Change report, 2,135 hearings in the No
Status Change report for January 8, 2008 were "untimely," 18 or exceeded the 90-day
benchmark, while in the Post-Hearing Development status code. 19 This represents



14
     In two of the cases, ODAR made an “on-the-record” decision instead of holding a hearing.
15
  Hence, when we stated earlier that the postponements did not lead to significant delays in the hearing
process, we were not speaking specifically to those cases that were postponed. The claimants directly
involved in these 15 cases might regard any delay in the ALJ’s decision to be significant.
16
  This case related to a 51-year-old male claimant from Indiana who had been diagnosed with diabetes.
The claim had been at various stages in the system for 5 years. The claimant initially requested a
hearing in February 2003, and the hearing was held in July 2004. After being denied benefits in
September 2004, the claimant appealed the decision. The Appeals Council reviewed the case and
remanded it back to an ALJ in June 2007. The hearing associated with the remand was scheduled for
October 2007 but was postponed because of new medical evidence received at the hearing.
17
  The CPMS No Status Change report is a “snapshot” of the entire workload being processed at the time
the report is printed.
18
     In this report we are equating this “untimely” workload with a significant delay in the process.
19
  The January 2008 No Status Change report indicates the three bottlenecks in the hearing process were
(1) Master Docket, (2) ALJ Review Pre-Hearing, and (3) Ready to Schedule (see Appendix F). These are
the same three bottlenecks discussed in our March 2007 audit, Management's Use of Workload Status
Reports at Hearing Offices (A-12-06-26130).


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                          6
about 0.7 percent of approximately 326,000 hearings currently in-process. 20,21 We
expanded the definition of this post-hearing work to include untimely ALJ Review Post-
Hearing, a 30-day step where the ALJ reviews the accumulated medical evidence
before making a decision. This represented another 3,726 claims as of
January 8, 2008. These additional claims represent about 1.1 percent of the
approximately 326,000 hearings currently in-process. 22 When the two status codes are
combined, we found that about 1.8 percent of the workload currently in-process was in
some form of post-hearing development status. It is possible a different definition of
“untimely” would increase the number of cases in this category. However, we limited
our definitions to those being used by SSA management.

As part of CPMS, hearing office employees assign a status code to each claim as it
moves through the process. The status code identifies the claim’s processing stage
and location. While CPMS uses about 40 status codes to track and process pending
claims in the hearing offices, the No Status Change report tracks claims in 12 specific
status codes (see Table 2). For example, a case in the Post-Hearing Development
status code must be moved to the next status code within 90 days or the case will
appear on the No Status Change report. Our June 2006 audit 23 found the No Status
Change report to be accurate.




20
  A total of 5.2 percent of the workload currently in-process was in the Post-Hearing Development status,
but only 0.7 percent was considered untimely under the 90-day benchmark standard (see Appendix F).
21
  We used CPMS’ January 8, 2008 Workload Summary by Status Report, which indicated about 756,000
hearings were in the backlog. We removed claims that were in the Unworked status code because the
hearing offices were taking no action on these cases (see Appendix G). We calculated the “in-process”
workload to be approximately 326,000 cases. While there are several ways to define the “in-process”
workload, we attempted to focus on those cases being worked by someone in a hearing office.
22
  A total of 2.8 percent of the workload currently in-process was in the ALJ Review Post-Hearing status,
but only 1.1 percent was considered untimely under the 30-day benchmark standard (see Appendix F).
23
  SSA OIG, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                          7
      Table 2: 12 Benchmarks in No Status Change Report (Chronological Order)
                                         ODAR
      Status Codes Tracked by the      Benchmark
       No Status Change Report           (Days)               Explanation of Benchmark Step
 1. Master Docket                          30         Claim information input to CPMS.
 2. Work Up                                25         Claim assigned and being prepared for review.
 3. Pre-Hearing Development                90         Requested additional information prior to hearing.
 4. ALJ Review Pre-Hearing                 10         ALJ reviewing claim prior to hearing.
 5. Ready to Schedule                      60         Claim work-up and development completed.
 6. Post-Hearing Development               90         ALJ requested more information after hearing.
 7. ALJ Review Post-Hearing                30         ALJ examining record before writing decision.
 8. Unassigned Writing                     30         Claim waiting to be assigned to a writer.
 9. Decision Writer Personal               15         Writer using a personal computer to draft
    Computer                                          decision.
 10. Edit                                  15         ALJ editing final written decision.
 11. Sign                                   7         Decision ready for ALJ’s signature.
 12. Mail                                   7         Decision signed and ready for release.
Note: See Appendix D for more specific information on the hearing process.

Additional Guidance on Post-Hearing Development Timeliness

ODAR has provided hearing offices with inconsistent guidelines for the timely
processing of medical evidence (see Table 3). For instance, in 2007, the Office of the
Chief Administrative Law Judge (OCALJ) established Benchmarks for Quality Case
Processing, which provides guidance on the maximum time a case should remain in a
category absent good cause (see Appendix H for the OCALJ codes). For medical
evidence, the Benchmarks for Quality Case Processing allows 21 days to obtain MER
from treating sources and 84 days 24 to obtain a CE from treating sources during both
the pre- and post-hearings development process. Together, the MER and CE steps
under the Benchmarks for Quality Case Processing allows 105 days, compared to
90 days for this step in the No Status Change report. 25

Although it appeared ODAR management was treating the Benchmarks for Quality
Case Processing as the preferred standard for the hearing offices, we did not see
evidence CPMS management reports had been arranged to highlight delays in meeting
these two medical evidence goals. ODAR management concurred that the specific
benchmarks were not being tracked via a CPMS management report. 26

ODAR has also established criteria for processing medical evidence in the HALLEX
Manual. For instance, the HALLEX Manual performance standard request for MER is

24
  The 84 days consist of 21 days to ensure the CE is scheduled and 63 days to ensure the CE report is
received at the hearing office. See Appendix H.
25
     See Appendix F.
26
  The local hearing offices are able to monitor the workload in CPMS more directly, so local management
should be able to obtain this detail.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                       8
30 days, depending on the availability of the evidence. 27 Another 30 days is allowed to
obtain the CE. 28 While the HALLEX guidance notes that diaries should be set up in the
system to ensure the evidence gathering process is timely, we did not see evidence
CPMS management reports had been arranged to highlight such delays. 29

                 Table 3: ODAR’s Medical Evidence Timeliness Criteria
                                                                                  Medical Evidence
          Criteria                  Obtaining MER           Obtaining a CE             Goal
 Benchmarks for Quality                21 days                 84 days               105 days
 Case Processing
 No Status Change Report                            90 days                             90 days
 HALLEX                                  30 days                30 days                 60 days

PRE-HEARING DEVELOPMENT

While our report has focused on late medical evidence provided by the claimant and/or
claimant’s representative before the hearing and the attempts to obtain that evidence
after the hearing, medical evidence can be delayed in other parts of the hearing
process, such as the periods covered by the Pre-Hearing Development and ALJ Review
Pre-Hearing status codes (see Appendix F). The No Status Change report for
January 8, 2008 indicates that claims would be considered untimely if they exceeded
90 days under the Pre-Hearing Development status code and 10 days under the ALJ
Review Pre-Hearing status code. We found that approximately 1.2 percent of the
workload currently in-process was untimely under the Pre-Hearing Development status
code and another 4.2 percent of the workload currently in-process was untimely under
the ALJ Review Pre-Hearing status code (see Appendix F). Together, approximately
5.4 percent of the workload currently in-process was untimely within these two status
codes.

Our March 2007 audit 30 stated the ALJs we interviewed indicated delays under the ALJ
Review Pre-Hearing status code related to some claims containing a significant amount
of evidence to examine, which caused them to exceed the 10-day benchmark. ALJs
also expressed a concern that they had too many cases on their dockets and therefore
they were constantly balancing the quality of the decision with the Agency’s goal for
average processing time.

27
  SSA, HALLEX I-2-5-14 – Obtaining Medical Evidence from a Treating Source or Other Medical Source.
The timeline varies somewhat depending on whether the information comes from the claimant, treating
source, or State DDS.
28
 SSA, HALLEX I-2-5-20 – Consultative Examinations and Tests and HALLEX I-2-5-14.C: Obtaining
Medical Evidence from a Treating Source or Other Medical Source.
29
  The local hearing offices are able to monitor the workload in CPMS more directly, so local management
should be able to obtain this detail.
30
 SSA OIG, Management’s Use of Workload Status Reports at Hearing Offices (A-12-06-26130),
March 2007.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                     9
Since these medical evidence issues occur before the claimant’s hearing is scheduled,
they are neither directly associated with the medical evidence problems noted in the
October 2007 NPRM nor likely to be remedied by increasing the notification period for a
hearing to at least 75 days. However, these additional medical evidence bottlenecks
show the importance of timely medical evidence throughout the entire hearing process.
These pre-hearing medical evidence issues, combined with the post-hearing medical
evidence issues, indicate that as much as 7.2 percent 31 of cases currently in-process
were significantly delayed.




31
   This figure includes the 1.8 percent discussed earlier and the 5.4 percent discussed in this section of
the report. We did not add the 0.2 percent associated with postponements since this covered an entire
fiscal year and not the workload currently in-process.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                            10
                                    Matters for Consideration
During our review, we found that ODAR used CPMS reports to monitor the timeliness of
medical evidence provided to hearing offices. However, in our review of CPMS
management reports, we did not find any evidence that the late submission of medical
evidence provided by claimants and their representatives before hearings was a
significant issue at hearing offices. When we reviewed the two points in the hearing
process identified by ODAR management, we found that about 0.2 percent of hearings
were postponed annually and about 1.8 percent of the workload currently in-process
was significantly delayed after the hearing due to late medical evidence.

Moreover, our review of the CPMS information found the postponement data may have
been incomplete, whereas the No Status Change report data were more reliable but
inconsistent with some of ODAR’s stated goals, such as the OCALJ’s timeliness goals
regarding medical evidence. As a result, it is possible that a different definition of
“untimely” in CPMS would change the number of significantly delayed hearings.
However, we limited our analysis to the CPMS “untimely” benchmarks being used by
ODAR management.

Finally, when we reviewed medical evidence delays beyond issues related to the role of
the claimant before the hearing, we found that as much as 7.2 percent of the hearings
workload currently in-process was significantly delayed because of late medical
evidence. However, this expanded definition of untimely cases is not directly
associated with the medical evidence problems noted in the October 2007 NPRM and
therefore most of these delays are not likely to be remedied by increasing the
notification period for a hearing to at least 75 days.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                    11
                                            Appendices




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                       Appendix A

Acronyms

    AA                  Attorney Advisor

    ALJ                 Administrative Law Judge

    AUX MAR             Auxiliary Monthly Activity Report

    CE                  Consultative Examination

    CPMS                Case Processing and Management System

    DDS                 Disability Determination Services

    FY                  Fiscal Year

    HALLEX              Hearings, Appeals and Litigation Law

    MER                 Medical Evidence of Record

    NE                  New Evidence

    NPRM                Notice of Proposed Rulemaking

    OCALJ               Office of the Chief Administrative Law Judge

    ODAR                Office of Disability Adjudication and Review

    OIG                 Office of the Inspector General

    OTR                 On-The-Record

    PA                  Paralegal

    SAA                 Senior Attorney Advisor

    SSA                 Social Security Administration

    UNWK                Unassigned Workup




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                                  Appendix B

Notice of Proposed Rulemaking
On October 29, 2007, the Social Security Administration (SSA) issued a notice of
proposed rulemaking regarding Amendments to the Administrative Law Judge, Appeals
Council, and Decision Review Board Appeals Levels. 1 The following table summarizes
some of the changes SSA proposed to the hearings and appeals provisions regarding
the timeliness of medical evidence.

               Table B-1: Comparison of Current and Proposed Policy
                                  Current Policy
                               (Outside the Boston
             Topic                   Region)               Proposed Policy

Three Levels of Disability             •   ALJ Hearing--Notify             •   ALJ Hearing--Notify
Appeals                                    claimant at least 20                claimant no later
                                           days prior to hearing               than 75 days prior to
                                                                               hearing1

Submitting Evidence                    •   ALJ accepts                     •   ALJ will accept
                                           evidence up to and                  evidence submitted
                                           including day of                    no later than 5
                                           hearing                             business days
                                                                               before the hearing1

                                       •   In proceedings on               •   In proceedings on
                                           remand from the                     remand from the
                                           Appeals Council or a                Review Board or a
                                           Federal court, ALJ                  Federal court, ALJ
                                           accepts evidence                    will not accept
                                           relating to period                  evidence relating to
                                           following first ALJ                 period following first
                                           decision                            ALJ decision2


Note 1: The October 2007 NPRM provisions to provide at least 75 days’ notice of the hearing and require
the submission of evidence at least 5 days before the hearing (subject to certain exceptions) were based
on similar rules included in the Disability Service Improvement regulations published in the Federal
Register on March 31, 2006 (71 Fed. Reg. 16424) and implemented in the Boston Region in August
2006.
Note 2: This proposal was not a part of the DSI regulations published in the Federal Register on March
31, 2006.


1
 Amendments to the Administrative Law Judge, Appeals Council, and Decision Review Board Appeals
Levels, 72 Federal Register 61218, October 29, 2007.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                        Appendix C

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable laws, regulations and Social Security Administration (SSA)
    policies including sections of SSA’s Hearings, Appeals, and Litigation Law Manual
    and other Office of Disability Adjudication and Review’s (ODAR) guidance, policies
    and procedures.

•   Reviewed prior Office of the Inspector General (OIG) and Government
    Accountability Office audit reports.

•   Reviewed SSA’s Notice of Proposed Rulemaking, Amendments to the
    Administrative Law Judge, Appeals Council, and Decision Review Board Appeals
    Levels, 72 Federal Register 61218, October 29, 2007.

•   Interviewed SSA’s representatives from ODAR’s Offices of the Chief Administrative
    Law Judge and Management to learn more about the role of evidence in the hearing
    process, identify potential bottlenecks, and obtain the related management
    information.

•   Obtained and evaluated Case Processing and Management System (CPMS)
    medical evidence data and reports from ODAR and SSA’s Office of Information
    Systems, including the Auxiliary Monthly Activity Report, Workload Summary by
    Status Report, and No Status Change report.

•   Reviewed a sample of 15 new evidence postponement cases for October 2007 in
    the CPMS to determine the status of postponed cases.

Because of time constraints, we did not review the internal controls related to SSA’s
management and oversight of medical evidence nor assess data reliability of the
medical evidence data in CPMS or other management information systems. However,
where possible we relied on prior audit work in this area. For example, the CMPS No
Status Change report was previously audited by the OIG and found to be reliable. 1 The
entity audited was SSA’s ODAR under the Deputy Commissioner for ODAR. We
performed our review in Chicago, Illinois, between January and March 2008 in
accordance with the Quality Standards for Federal Offices of Inspector General dated
October 2003.



1
  SSA OIG, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                                                      Appendix D

Hearing Office Process Flow Diagram

                          Master Docket status indicates that a Request for Hearing has been received in the hearing
        Master Docket     office. No action has been taken on the claim other than to log it into the Case Processing and
                          Management System (CPMS).
                                                                                           Case Intake Specialist and other
                                      Dismissed                   Written decision/        employees screen claims for
           Screening      YES                                      dismissal sent          dismissals and the Administrative
        Can a dispositive                                            to claimant           Law Judge (ALJ) makes the
        action be taken?             On-The-Record                                         dismissal decision. A senior
                                                                                           attorney screens a claim and
                                     (expedite without
        NO                                                                                 makes a recommendation for a
                                        a hearing)
                                                                                           possible on-the-record decision.

         Unassigned
          Workup          The claims is ready to be worked up, but has not yet been assigned.



                           The claim has been assigned to a specific case technician for preparing exhibits and
          Work-up
                           medical summaries.



        Pre-Hearing        Medical and other information has been requested prior to the hearing.
        Development



         ALJ Review        The claims is with the ALJ for review prior to the hearing.
         Pre-Hearing


                           When all workup, pre-development, contact and certification activities have been
          Ready to         completed, the claim is moved into the Ready to Schedule status.
          Schedule


                           A claim enters the Scheduled status when all of the hearing participants have been notified and a
          Scheduled        specific date has been set for the hearing.


                           Post-Hearing Development indicates that a hearing has been held and additional evidence
         Post-Hearing      has been requested subsequent to the hearing. ALJ Post-Hearing Review is when a hearing
                           has been held and the ALJ is examining the record after the hearing.


             Writing       The decision is being written either by the ALJ or a decision writer.



                           The claim is either in Sign status, awaiting an ALJ’s signature, Mail status, the ALJ
         Disposition       has signed the decision, or Closed status, the decision has been mailed.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                                     Number of Postponements




                                                                                0
                                                                                     2
                                                                                         4
                                                                                             6
                                                                                                 8
                                                                                                      10
                                                                                                           12
                                                                                                                14
                                                                            Jan. 2
                                                                            Jan. 3
                                                                            Jan. 4
                                                                            Jan. 7
                                                                            Jan. 8
                                                                            Jan. 9
                                                                           Jan. 10
                                                                           Jan. 11
                                                                           Jan. 14
                                                                           Jan. 15
                                                                           Jan. 16
                                                                           Jan. 17
                                                                           Jan. 18
                                                                           Jan. 22
                                                                           Jan. 23
                                                                           Jan. 24
                                                                           Jan. 25
                                                                           Jan. 28
                                                                           Jan. 29
                                                                           Jan. 30
                                                                           Jan. 31
                                                                            Feb. 1
                                                                            Feb. 4
                                                                            Feb. 5
                                                                            Feb. 6
                                                                            Feb. 7
                                                                            Feb. 8
                                                                           Feb. 11




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                                                                           Feb. 12
                                                                           Feb. 13
                                                                           Feb. 14
                                                                           Feb. 15




                                                                    Date
                                                                           Feb. 19
                                                                           Feb. 20
                                                                           Feb. 21
                                                                           Feb. 22
                                                                           Feb. 25
                                                                           Feb. 26
                                                                           Feb. 27
                                                                           Feb. 28
                                                                                                                                                                                            New Evidence Postponement Code Activity




                                                                           Feb. 29
                                                                            Mar. 3
                                                                            Mar. 4
                                                                            Mar. 5
                                                                            Mar. 6
                                                                            Mar. 7
                                                                           Mar. 10
                                                                           Mar. 11
                                                                                                                     (January 2 through March 31, 2008)




                                                                           Mar. 12
                                                                           Mar. 13
                                                                                                                                                          New Evidence Postponement Codes




                                                                           Mar. 14
                                                                           Mar. 17
                                                                           Mar. 18
                                                                           Mar. 19
                                                                           Mar. 20
                                                                           Mar. 21
                                                                           Mar. 24
                                                                           Mar. 25
                                                                           Mar. 26
                                                                           Mar. 27
                                                                           Mar. 28
                                                                           Mar. 31
                                                                                                                                                                                                                                      Appendix E
                                                                                                            Appendix F

No Status Change Report
                                                                                                             Percent of
   Status Codes                                            Number of      Percent of      Status Codes       In-Process
Tracked By the No                                           Cases in      In-Process     Tracked By the      Workload2
   Status Change                        Explanation of       Status      Workload1 in       No Status        Considered
       Report          Benchmark      Benchmark Step         Code        Status Code     Change Report        Untimely
1. Master Docket        30 days       Claim information        32,731             10.0             15,877              4.9
                                      input to the Case
                                      Processing and
                                      Management
                                      System.
2. Work Up               25 days      Claim assigned            18,407             5.6             7,895               2.4
                                      and being
                                      prepared for
                                      review.
3. Pre-Hearing           90 days      Requested                 28,313             8.7             3,759               1.2
   Development                        additional
                                      information
                                      before hearing.
4. Administrative        10 days      ALJ reviewing             18,707             5.7            13,557               4.2
   Law Judge (ALJ)                    claim before
   Review Pre-                        hearing.
   Hearing
5. Ready to              60 days      Claim work-up             54,699            16.8            19,110               5.9
   Schedule                           and development
                                      completed.
6. Post-Hearing          90 days      ALJ requested             17,091             5.2             2,135               0.7
   Development                        more information
                                      after hearing.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                                        F-1
                                                                                                                            Percent of
   Status Codes                                                Number of         Percent of          Status Codes           In-Process
Tracked By the No                                               Cases in         In-Process         Tracked By the          Workload1
   Status Change                          Explanation of         Status         Workload1 in           No Status            Considered
       Report            Benchmark       Benchmark Step          Code           Status Code         Change Report            Untimely
7. ALJ Review             30 days        ALJ examining               9,091                2.8                  3,726                  1.1
   Post-Hearing                          record before
                                         writing decision.
8. Unassigned              30 days       Claim waiting to            14,016                  4.3                 5,779                   1.8
   Writing                               be assigned to a
                                         writer.
9. Decision Writer         15 days       Writer using a               9,054                  2.8                 2,521                   0.8
   Personal                              personal
   Computer                              computer to draft
                                         decision.
10. Edit                   15 days       ALJ editing final            3,240                  1.0                   871                   0.3
                                         written decision.
11. Sign                    7 days       Decision ready               2,581                  0.8                   581                   0.2
                                         for ALJ’s
                                         signature.
12. Mail                    7 days       Decision signed               2089                  0.6                   242                   0.1
                                         and ready for
                                         release.
Total2                                                             210,019                 64.4                 76,053          23.3

Note 1: We used CPMS’ January 8, 2008 Workload Summary by Status Report, which indicated about 756,000 hearings were in the backlog.
We removed claims that were in the Unworked status code because the hearing offices were taking no action on these cases (see Appendix G).
We calculated the “in-process” workload to be approximately 326,000 cases. While there are several ways to define the “in-process” workload, we
attempted to focus on those cases being worked by someone in a hearing office.
Note 2: The total number of cases in the No Status Change report above do not add to the 326,000 hearing cases, our calculated “in-process”
workload, since not all status codes are tracked on the No Status Change report. For example, hearings in Scheduled status are not tracked on
the No Status Change report.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                                                           F-2
                                                                               Appendix G

Prior Audit Work on Pending Claims
In our March 2007 audit of Management’s Use of Workload Status Reports at Hearing
Offices, we assessed the effectiveness of the benchmarks used in the Case Processing
and Management System’s (CPMS) No Status Change report to identify bottlenecks in
the Social Security Administration’s (SSA) hearing process. As part of this review, we
noted that, of the 725,000 pending claims, 419,000 were located in 2 status codes that
did not have benchmarks (see Figure G-1), while 306,000 claims had benchmarks and
were being tracked by the No Status Change report. About 48 percent of the pending
claims were in the Unassigned Workup (UNWK) status code. The UNWK status code
indicates a claim was entered into the hearing office’s Master Docket, but the claim is
“inactive” and awaiting processing. The remaining 10 percent of the pending claims
were located in the Scheduled status code. The Scheduled status code indicates the
claim was scheduled for a hearing and is awaiting a hearing date.

                Figure G-1: Distribution of ODAR’s Pending Workload
                                         (as of June 2006)

                                                             346,500 Pending
                                                                Claims in
      306,000 Claims                                           Unassigned
     in Status Codes                           48%           Workup (UNWK)
                                                                                  No Timeliness
      Tracked by the            42%                            Status Code        Benchmark
        No Status
     Change Report                                           72,500 Pending
                                                                                  With Timeliness
                                                                Claims in
                                                                                  Benchmarks
                                             10%               Scheduled
                                                              Status Code



We also noted that previous reports 1 indicated that receipts outpaced hearing office
dispositions, resulting in an increasing pending workload and worsening processing
times. ODAR’s hearing offices have been unable to process all the incoming workload.
Consequently, the number of pending claims under the UNWK status code has been
increasing. Claims continue to age while being held in the “inactive” UNWK status
code. Hearing office managers use the CPMS Pending Claims 2 management report to



1
 SSA OIG, The Effects of Staffing on Hearing Office Performance (A-12-04-14098), March 2005; and
Best Practices in Highest Producing Hearing Offices (A-12-04-14020), August 2004.
2
 SSA OIG, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.



Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                   G-1
track the claims while they are in the UNWK status code. Hearing office staff move the
pending claims out of the UNWK status code, and place them into the hearing process,
based on the “Request for Hearing” date. Therefore, the oldest claims are processed
before the newer claims, unless the claim is labeled as a Critical Case. Critical Cases
are a priority and are processed first. 3




3
  ODAR designates a claim for expedited processing based on one of three criteria: (1) terminal illness,
(2) dire need, and (3) threatening behavior to themselves or others. For more information on Critical
Cases, see the Hearings, Appeals and Litigation Law manual Section I-2-1-40 – Critical Cases.


Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                                     G-2
                                                                            Appendix H

Benchmarks for Quality Case Processing
The benchmarks published at the Office of the Chief Administrative Law Judge web site
during 2007 provided guidance on the maximum time cases should remain in each
category absent good cause.


   Case Processing and             Benchmark
 Management System Code          (Calendar Days)                     Comments
                                                         Receipt of claim file through auto
        Master Docket                   21               establish in Case Processing and
                                                               Management System
        PRE/POST                                              Requests for prior files
                                        28
        Prior files                                              (diary for 28 days)
        PRE/POST
                                                          Requests for Treating Sources
    Medical Evidence of                 21
                                                          (diary for 10 days for follow up)
         Record
        PRE/POST                                      21 days to be sure the CE is scheduled
       Consultative                   21/63              63 days to be sure the CE report is
    Examinations (CE)                                       received at the hearing office
                                                     Cases transferred to other hearing offices
                                                      for case preparation or decision drafting
            TEMP                        42
                                                     should be completed and returned to the
                                                        original hearing office within 42 days
                                                     Pre-hearing Review (Administrative Law
   Decision Writer Review                               Judge [ALJ]/Senior Attorney Advisor
                                         7
   (Unpulled File Review)                              [SAA]/Attorney Advisor [AA])/Paralegal
                                                                         [PA])
                                                                    Case Workup
           Workup                        7
                                                          (assembly/development/analysis)
 ALJ Review Pre-Hearing1                 7                  ALJ Review (Pre-scheduling)
 ALJ Review Post-Hearing1                7                   ALJ Review (Post-hearing)
  ALJ Dictating Decision
  ALJ Writing Decision on
    Personal Computer                   14                     ALJ Drafting Decision
    ALJ Writer Speech
       Recognition
 Decision Writer Dictating
         Decision
  Decision Writer Writing
   Decision on personal                  7             Pre-hearing Review (ALJ/SAA/AA/PA)
         computer
  Decision Writer Speech
       Recognition
           EDIT                          7               ALJ/SAA/AA/PA Editing Decision



Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                             H-1
   Case Processing and                Benchmark
 Management System Code             (Calendar Days)                     Comments
    Typist Corrections                                   Typographical corrections to be corrected
                                            7
         (CORR)                                          on ALJ decision
                                                         Case in the ALJ's office waiting final
             SIGN1                          1            review, ALJ Verification Input Database,
                                                         and signature
              MAIL                          1            Awaiting mailing of ALJ decision

Note 1: ALJ on travel docket/unavailable, timeframe begins upon return to hearing office.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)                              H-2
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division (312) 353-0331

   Annette Dunn, Audit Manager, Chicago Office (312) 886-4160

Acknowledgments
In addition to those named above:

   Linda Smid, Auditor

   Wai Ho Yung, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-05-08-28106.




Timeliness of Medical Evidence at Hearing Offices (A-05-08-28106)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
